SUPREME COURT OF THE UNITED STATES
RANDALL SCOTT OVERTON,
Pro se Petitioner,

^ ,, L
No.:

i

v.
MATT MACAULEY, WARDEN,
Respondent.

PRO SE PETITIONER'S MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS
PRO SE Petitioner, RANDALL SOOTT OVERTON (tTetitianerM), moves this Honorable
Court, pursuant to S.Ct.R. 39(1), for leave to proceed in forma pauperis, as he is
a pauper who is unable to afford the Court's docket fee in this matter. In support
of his motion, Petitioner, relies on his ATTACHED declaration, and the following:
1. Petitioner, submits that he did not seek leave to proceed in forma
pauperis in die state-courts in this matter, because at the time he was
represented by retained counsel.
2. IXie to the extensive judicial history and procedural posture of his case,
Petitioner, has depleted his savings on legal fees.
3. As a result of the depletion of his savings on legal fees, and because of
his present incarceration, Petitioner, other than an occasional money order from
family, and approximately $15.00 from his institutional work assignment a
Petitioner, lacks sufficient funds to pay the Gourt's fling fee.
CONCLUSION AND RELIEF REQUESTED

Page 1 of 2

month,

WHEREFORE, on the basis of his statements contained in this motion and those
set forth in the ATTACHED declaration, Petitioner, prays that this Honorable Court
grant him leave to proceed in focma pauperis.
Most respectfully submitted,

/0Z2^Z£>

RANDALL SOOTT OVERTON #807506
Pro Se Petitioner
Bellamy Greek Correctional Facility
1727 West Blurwater Highway
Ionia, MI 48846

Date:

Page 2 of 2

IN THE
SUPREME OOURT OF THE UNITED STATES
RANDALL SCOTT OVERTON,
Pro se Petitioner,
No.:

v.
MATT MACAULEY, WARDEN,
Respondent.
/

DECLARATION OF RANDALL SOQTT OVERTON
IN SUPPORT OF MOTION FOR LEAVE TO E
IN FORMA PAUPERIS
1. Petitioner, estimates the average amount of money received from each of
the following sources during the last 12 months?
Petitioner, is not married.
Employment: $0
Self-employment: $0
Income from real property (such as rental income); $0
Interest and dividends: $0
Gifts: Occasionally, from family, approximately $125.00 a month.
Alimony: $0
Child support: $0
Retirement (such as social security, pensions, annuities, insurance): $0
Disability (such as social security, insurance payments): $0
Public assistance (such as welfare): $0
Other (specify): $0.
Total monthly income: $140.00
2. List your employment history, most recent employer first. (Gross monthly
pay is before taxes or other deductions.): Petitioner, has been incarcerated since
2011.
3. List your spouse's employment history, most recent employer first: WP
4. How much cash do you have and your spouse have?: $0
Financial institution: $0
Type of account: N/A
Amount you have: $0
Amount your spouse has: N/A

Page 1 of 2

5. List the assets, and their values, which you own or your spouse own. Do
not list clothes or ordinary household furnishings. Petitioner, owns no assets; no
home or other real estate nor a motor vehicle.
6. State every person, business, or organization owing you or your spouse
money, and the amount owed: N/A
7. State the persons who rely on you or your spouse for support: N/A
8. Estimate the average monthly expenses of you > and your family. Show
separately the amounts paid by your spouse. Adjust any payments that are made
weekly, biweekly, quarterly, semiannually, or annually to show the monthly rate:
N/A due to Petitioner's incarceration.
9. Do you expect any major changes to your monthly income or expenses or in
your assets or liabilities during the next 12 months: No.
10* Have you paid - or will you be paying ~ an attorney any money for services
in connection with this case, including the completion of this form: No.
11. Have you paid - or will you be paying - anyone other than an attorney
(such as a paralegal or a typist) any money for services in connection with this
case, Including the completion of this form: No.
12. Provide any other information that will help explain why you cannot pay
the docket fees for your petition.
IXie to Petitioner's incarceration since 2011, and having spent his life
savings on attorney fees in defense of his criminal charges, Petitioner, relies
entirely upon his monthly pay from his institution work assignment in which he
earns approximately $15.00, and a monthly gift of $125.00 a month from his family.
Petitioner, is unable to afford the Court's docket fee in this matter.
13. State and city and state of your legal residence: Ionia, Michigan.
Your daytime phone number: N/A
I, RANDALL SGCTT OVERTON, Petitioner in the above-captioned cause, swear
under penalty of perjury, pursuant to 28 U.S.C. § 1746, that, because of my
poverty, I cannot prepay the docket fees of my petition. Petitioner, further
swears under penalty of perjury under the United States laws that my answers on
this form are true and correct.

/C'22r-2o

Randall Scott Overton
Pro se Petitioner

Date:

Page 2 of 2

